EXHIBIT A
Case13:17-cr-00396-MEM Document 50 Filed 09/17/18 Page 1 of1

:

UNITED STATES DISTRICT COURT

; MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA,
Plaintiff,
‘ 3:17-CR-00396-1-MEM
+ vs.
FREDRICK BROWN, : ORDER APPOINTING COUNSEL
Defendant.

 

 

The individual named below, having testified under oath or having otherwise
satigfied this Court that he or she (1) is financially unable to employ counsel and (2) does not wish
to waive counsel, and because the interests of justice so require, the Court finds that the
Deféndant financially qualifies for court-appointed counsel, therefore,

IT IS ORDERED that Paul Philip Ackourey is hereby appointed to represent

Deféndant, Fredrick Brown.

DATED this 17th day of September, 2018.

 
Case: 19-2743 Document: 003113305344 Page:1 Date Filed: 07/30/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 19-2743

 

USA v. Frederick Brown

(US. District Court No. 3-17-cr-00396-001)
ORDER REGARDING APPOINTMENT OF COUNSEL

Paul P. Ackourey, Esq. is hereby appointed to represent Frederick Brown on appeal. The
appointment will be created in the Court’s eVoucher program. Counsel is directed to the
eVoucher page for information regarding the appointment terms and procedures.

CJA 20, 30, 21 and 31 vouchers are submitted for payment through the Court’s eVoucher
program. Upon receiving separate email notification of this appointment from the Court’s CJA
staff, counsel may create CJA 20, 30, 21 and 31 vouchers for use in maintaining time and
expense records and paying for expert services.

Authorization for preparation of transcripts must be obtained in the District Court.
Deadlines for ordering and filing the transcripts will be set by this Court. Counsel is required to
file the transcript purchase order in this Court and should indicate in Part 1B of the form that the
"CJA form submitted to District Court Judge". Counsel must complete the transcript request by
filing an "Auth-24" request in the District Court’s eVoucher program. Financial arrangements for
the transcripts will not be considered complete until counsel has submitted an "Auth-24" request
through the District Court’s e Voucher program.

For the Court, "

s/ Patricia S. Dodszuweit
Clerk

Dated: July 30, 2019
SLC/cc: Paul'P. Ackourey Esq.
Sean A. Camoni Esq.
Jenny P. Roberts Esq.
